No, 20-361

 

IN THE

Supreme Court of the Anited States

JAMES COURTNEY AND CLIFFORD COURTNEY, ET AL.,
Petitioners,
Vv.

DAVID DANNER IN HIS OFFICIAL CAPACITY AS CHAIRMAN
AND COMMISSIONER OF THE WASHINGTON UTILITIES AND
TRANSPORTATION COMMISSION, ET AL.,

Respondents.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

BRIEF FOR AMICUS CURIAE
AMERICANS FOR PROSPERITY FOUNDATION
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,697 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 2, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
